          Office of Inspector General




September 28, 2005

ANITA J. BIZZOTTO
EXECUTIVE VICE PRESIDENT, CHIEF MARKETING OFFICER

NICHOLAS F. BARRANCA
VICE PRESIDENT, PRODUCT DEVELOPMENT

SUSAN M. PLONKEY
VICE PRESIDENT, CUSTOMER SERVICE

SUBJECT:       Audit Report – Expedited Packaging Supplies
               (Report Number MS-AR-05-002)

This report presents the results of our self-initiated, nationwide audit of the Expedited
Packaging Supply program (Project Number 04BN002MS000). Our overall objective
was to determine the effectiveness and efficiency of management’s controls over
expedited packaging supplies. We determined the adequacy of management’s efforts
to monitor and track expedited packaging supplies offered to customers.

The Expedited Packaging Supply group effectively provided supplies to customers, but
could not monitor customer supply usage and did not have effective controls over
ordering. Also, management needed stronger controls over expedited packaging tape
to deter potential waste. During our audit, the Postal Service changed its policy over
expedited packaging tape resulting in 2-year projected savings of $4 million. (See
Appendix A.) These funds put to better use will be reported in our Semiannual Report
to Congress. In addition, some orders for expedited packaging supplies required
monetary commitments from customers. The Business Service Network (BSN) filled
these orders without the authority to do so.

We recommended Postal Service management conduct reviews of customer use of
expedited packaging supplies, clarify the BSN’s ordering authority, and direct district
managers to eliminate local product fulfillment operations. Management agreed in
whole or in part with our recommendations and has initiatives planned, in progress, and
completed, addressing the issues in this report. Management concurred with our
potential monetary benefits. Management’s comments and our evaluation of these
comments are included in this report.
We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Robert
Mitchell, Director, Marketing, or me at (703) 248-2300.

E-Signed by Office of Inspector General
  VERIFY authenticity with ApproveIt



John M. Seeba
Deputy Assistant Inspector General
 for Financial Operations

Attachments

cc:   James P. Cochrane
      Thomas J. Allshouse
      Daniel J. Barrett
      Robin E. Ware
      Steven R. Phelps
Expedited Packaging Supplies                              MS-AR-05-002



                               TABLE OF CONTENTS

 Executive Summary                                             i

 Part I

 Introduction                                                  1

     Background                                                1
     Objective, Scope, and Methodology                         2
     Prior Audit Coverage                                      3

 Part II

 Audit Results                                                 5

     Analysis of the Expedited Packaging Supply Program        5
     Unaccounted-for Expedited Packaging Supplies              5
        Supply Chain Management                                6
        Management Controls Need Strengthening                 7
        Recommendations                                        8
        Management’s Comments                                  9
        Evaluation of Management’s Comments                    9

     Expedited Packaging Tape                                10
        Proposed Change in Policy                            11

     Business Service Network                                12
         Recommendations                                     13
         Management’s Comments                               13
         Evaluation of Management’s Comments                 13

     Prior Audit Follow-Up – Mail Product Supplies           15
         Recommendation                                      15
         Management’s Comments                               16
         Evaluation of Management’s Comments                 16

 Appendix A. Funds Put to Better Use                          17

 Appendix B. Management’s Comments                           18
Expedited Packaging Supplies                                                                          MS-AR-05-002



                                       EXECUTIVE SUMMARY
    Introduction                   This report presents the results of our self-initiated,
                                   nationwide audit of the Expedited Packaging Supply
                                   program. Our objective was to determine the effectiveness
                                   and efficiency of management’s controls over expedited
                                   packaging supplies. We determined the adequacy of
                                   management’s efforts to monitor and track expedited
                                   packaging supplies offered to customers.

    Results in Brief               The Expedited Packaging Supply group was effective at
                                   providing supplies to customers, but could not monitor
                                   customer use of supplies and did not have effective controls
                                   over ordering.

                                   The Expedited Packaging Supply group could not account
                                   for the use1 of approximately 419 million Priority Mail® and
                                   Express Mail® boxes and envelopes from fiscal years 2000
                                   to 2003. This amount was approximately 17 percent of the
                                   total boxes and envelopes purchased during the 4-year
                                   period.

                                   Management needed stronger controls over expedited
                                   packaging tape to deter potential waste. During our audit,
                                   the Postal Service changed its policy over expedited
                                   packaging tape by limiting customer access, which
                                   addresses our concerns. The Postal Service estimated it
                                   will save $2 million annually as a result of the change. The
                                   OIG plans to report a 2-year projected savings of $4 million
                                   in its Semiannual Report to Congress. (See Appendix A.)

                                   The Postal Service had no policies or procedures requiring
                                   the Business Service Network2 (BSN) to monitor and report
                                   their involvement with expedited packaging supplies. BSN
                                   employees could use the Customer First3 system to enter
                                   information on the return and redistribution of expedited
                                   packaging supplies.

1
  For this report, the Office of Inspector General (OIG) defines “use” as expedited packaging supplies purchased by
the Postal Service and used by customers to mail with the Postal Service.
2
  The BSN is a dedicated nationwide network that supports the Postal Service’s largest customers for service issues,
information, and needs requests.
3
  Customer First is an automated tool that will allow the Sales group to effectively target and manage revenue-
generating opportunities.




                                                          i
Expedited Packaging Supplies                                                                   MS-AR-05-002



                                    The BSN ordered expedited packaging supplies that
                                    required a monetary commitment from customers, although
                                    Postal Service policies did not state that this was an
                                    approved BSN customer service function.

                                    One Postal Service district operated its own local supply
                                    fulfillment center, storing expedited packaging supplies for
                                    customers in Postal Service space, contrary to Postal
                                    Service policy. This issue was reported in a prior OIG
                                    report.4

    Summary of                       We recommend Postal Service management:
    Recommendations
                                         •   Annually review customer use of expedited
                                             packaging supplies to determine the level of
                                             unaccounted for expedited packaging supplies and
                                             minimum and maximum customer orders.

                                         •   Require the Business Service Network to use
                                             Customer First to monitor and report the Business
                                             Service Network’s handling of expedited packaging
                                             supplies to the Expedited Packaging Supply group.

                                         •   Determine whether a business case exists for the
                                             Business Service Network to order expedited
                                             packaging supplies requiring monetary commitments
                                             from customers.

                                         •   Direct district managers to eliminate local product
                                             fulfillment operations.

    Summary of                      Postal Service management agreed with our
    Management’s                    recommendations in whole or in part stating that:
    Comments
                                         •   It is working to institute a revised method of
                                             measuring customers’ supply use.

                                         •   It conducted an analysis and instituted a maximum
                                             level of supplies a customer can order.

                                         •   It determined the rationale behind the minimum
                                             supply order quantities were effective and did not
                                             need to be changed; however, management agreed
4
    OIG report, Mail Product Supplies (Report Number AC-AR-03-002, dated February 14, 2003).




                                                          ii
Expedited Packaging Supplies                                                         MS-AR-05-002



                                      with the need to conduct more frequent reviews of
                                      minimum supply order quantities.

                                  •   The BSN would work with Customer First to ensure a
                                      customer qualifies for large volumes of expedited
                                      supplies. However, management stated that
                                      Customer First does not currently have the capability
                                      to report ordering information back to the Expedited
                                      Supply program.

                                  •   The BSN will be allowed to place orders for
                                      expedited packaging supplies requiring a monetary
                                      commitment and plans to update Publication 22
                                      accordingly.

                                  •   Past instruction to district offices will be reiterated
                                      and new instructions for ordering expedited
                                      packaging supplies requiring the use of the e-Buy
                                      system will be issued to Post Offices.

                               Subsequent to issuing formal comments on our draft report,
                               management agreed with our potential monetary benefits.
                               Management’s comments are included in Appendix B of this
                               report.

 Overall Evaluation of         Management’s comments are responsive to the
 Management’s                  recommendations. Actions planned, in progress, and
 Comments                      completed, address the issues identified in the findings.
                               However, we disagree with Postal Service management’s
                               assertion that the current rationale used to determine
                               minimum supply order quantities is effective (see page 9).
                               We also note that management did not address using
                               Customer First for tracking customer returns or
                               redistributing excess expedited packaging supplies in order
                               to monitor the supplies handled by the BSN (see page 13).




                                                 iii
Expedited Packaging Supplies                                                                          MS-AR-05-002



                                             INTRODUCTION
    Background                     The Postal Service provides packaging supplies at no cost
                                   to customers for use with its Express Mail®, Priority Mail®,
                                   and Global Delivery services. The revenue generated from
                                   these services offsets the costs of offering free expedited
                                   packaging supplies. Packaging supplies include corrugated
                                   containers, Tyvek®5 and paperboard envelopes, and a
                                   range of pressure sensitive labels and decals. In fiscal year
                                   (FY) 2005, the Postal Service’s budget for this program was
                                   $96 million.

                                   Three categories of packaging supplies are available to
                                   customers: standard, specialized, and customized.
                                   Customers meeting certain requirements may also have
                                   their supplies co-branded.6

                                   Customers using standard supplies may order these
                                   supplies from the Express and Priority Mail Supply Center
                                   using the Internet, telephone, fax, or mail.7 Customers
                                   ordering specialized, customized, and co-branded
                                   packaging supplies must meet monetary commitments8 to
                                   offset the cost of the supplies. Postal Service sales
                                   representatives order these supplies. When customers
                                   need to return expedited packaging supplies, they contact
                                   the Expedited Packaging Supply group. Customers with a
                                   Business Service Network (BSN) representative may
                                   contact their representative to have their supplies collected
                                   for redistribution.

                                   In FY 2005, the Expedited Packaging Supply program had a
                                   total budget of $96 million, consisting of $79 million to fund
                                   expedited packaging supplies, $14 million to fund the
                                   Express and Priority Mail Supply Center and transportation,
                                   and $3 million to fund international packaging supplies.

                                   Postal Service Publication 22 states the overall objectives of
                                   the Expedited Packaging Supply program as:


5
  Tyvek is a trademark owned by E.I. du Pont de Nemours and Company. In 1983, the Postal Service began using
Tyvek for large expedited mailing envelopes.
6
  Publication 22, Expedited Packaging Supplies, defines co-branding as printing the brand identity of the customer on
the packaging along with the service brand identity of the Postal Service.
7
  Customers may also pick up standard supplies at a local post office.
8
  Yearly monetary commitments were $50,000 in revenue generation to obtain specialized packaging, and
$500,000 in revenue generation to obtain customized or co-branded packaging.




                                                           1
Expedited Packaging Supplies                                                                           MS-AR-05-002



                                        •    Generating new revenue by attracting new customers
                                             and growing business with existing customers.

                                        •    Increasing processing efficiency and improving
                                             on-time delivery by clearly identifying Express Mail,
                                             Priority Mail, and Global Delivery services in the
                                             mailstream.

                                        •    Increasing customer retention and loyalty by
                                             providing packaging that meets the customer’s
                                             shipping needs.

    Objective, Scope, and           Our overall objective was to determine the effectiveness
    Methodology                     and efficiency of management’s controls over expedited
                                    packaging supplies. Specifically, we determined the
                                    adequacy of management’s efforts to monitor and track
                                    expedited packaging supplies offered to customers.9

                                    To accomplish our objective, we interviewed Postal Service
                                    marketing officials in Product Development, Sales, and
                                    Service and Market Development. We also interviewed
                                    Postal Service officials in Purchasing, Network Operations,
                                    and Transportation. We reviewed the standard operating
                                    procedures for the Sales organization regarding expedited
                                    packaging supplies (Publication 22) and the Sales
                                    management policies and procedures publication titled
                                    Sales Management Process Fiscal Year 2004.

                                    We reviewed applicable sections of the Postal Service’s
                                    Transformation Plan; Origin - Destination Information
                                    System – Revenue, Pieces and Weight10 (ODIS-RPW)
                                    reports; Priority End-to-End reports; Office of Inspector
                                    General (OIG) Hotline reports of abused supplies; and
                                    volume and cost data on expedited packaging supplies. We
                                    did not assess the reliability of the data obtained from Postal
                                    Service databases; therefore, we base no conclusions or
                                    recommendations solely on those data.



9
 Our audit focused on expedited packaging boxes, envelopes, and tape.
10
 The ODIS-RPW test consists of samples of mail taken by data collectors on randomly selected days at randomly
selected mail exit points or at consolidated originating units. The information collected was used to estimate the
national volume, transit time, performance, revenue, pieces, weight, and mailpiece characteristics of the mail by class
and subclass.




                                                           2
Expedited Packaging Supplies                                                      MS-AR-05-002




                               Our audit covered data obtained from the Postal Service for
                               FYs 2000 through 2003. We conducted this audit from
                               April 2004 to September 2005, in accordance with generally
                               accepted government auditing standards and included such
                               tests of internal controls as were considered necessary
                               under the circumstances. We reviewed management
                               controls over the Expedited Packaging Supply program as
                               they related to the audit objectives. Specifically, we
                               reviewed policies and procedures and held discussions with
                               program officials to ensure that expedited packaging
                               supplies could be accounted for. We discussed our
                               observations and conclusions with management officials
                               and included their comments where appropriate.

 Prior Audit Coverage          Our report, Mail Product Supplies (Report Number
                               AC-AR-03-002, dated February 14, 2003), identified
                               overstated requirements for mail product supplies. Budget
                               requests for mail product supplies did not consider on-hand
                               balances of specialized and standard packaging supplies in
                               Postal Service facilities at the district level. For FY 2003,
                               Postal Service management agreed to reduce expenses for
                               mail product supplies by approximately $1.2 million for
                               excess standard packaging supplies and about $430,000 for
                               excess specialized packaging supplies. In addition,
                               personnel in 12 of 33 districts established or maintained
                               local product fulfillment operations to manage excess mail
                               product supplies. Officials in 7 of the 12 districts estimated
                               that in FY 2002, they spent $102,000 to manage excess
                               package supplies at the same time the Postal Service was
                               paying a contractor for this service.

                               We recommended that Postal Service management use the
                               excess packaging supplies in district offices before
                               purchasing additional mail product supplies and that the
                               FY 2003 budget for standard and specialized supplies be
                               reduced by $1.6 million. We also recommended that
                               districts discontinue product fulfillment and enforce the
                               requirements for Postal Service facilities to order mail
                               product supplies from the Express and Priority Mail Supply




                                                3
Expedited Packaging Supplies                                                      MS-AR-05-002




                               Center or Postal Service account managers. Postal Service
                               management agreed with our recommendations.

                               During this audit, we found that one Postal Service district
                               continued to fill customer orders for expedited packaging
                               supplies by operating a local supply fulfillment center,
                               storing expedited packaging supplies for customers in
                               Postal Service space.




                                                4
Expedited Packaging Supplies                                                                      MS-AR-05-002



                                           AUDIT RESULTS
 Analysis of the                 The Expedited Packaging Supply group was effective at
 Expedited Packaging             providing supplies to customers; however, the group could
 Supply Program                  improve the monitoring of customer supply usage and
                                 controls over ordering.

                                 The Expedited Packaging Supply group could not account
                                 for the use of $56 million of expedited packaging supplies
                                 from FYs 2000 to 2003. Management needed stronger
                                 controls over expedited packaging tape to deter potential
                                 waste. During our audit, the Postal Service changed its
                                 policy for expedited packaging tape, addressing our concern
                                 and eliminating the need to make a recommendation.

                                 The Postal Service had no policies or procedures requiring
                                 the BSN to monitor and report its involvement with expedited
                                 packaging supplies. The BSN ordered expedited packaging
                                 supplies that required monetary commitments from
                                 customers, but did not have the authority to provide this
                                 service. Finally, in one instance, the Postal Service did not
                                 fully implement recommendations from a prior OIG audit
                                 report, Mail Product Supplies (Report Number
                                 AC-AR-03-002, dated February 14, 2003).

 Unaccounted for                 The Expedited Packaging Supply group could not account
 Expedited Packaging             for the use of approximately 419 million Priority and Express
 Supplies                        Mail boxes and envelopes from FYs 2000 to 2003, or
                                 17 percent of the total spent on these items over this 4-year
                                 period. This meant that approximately $56 million of
                                 expedited packaging supplies, or 14 percent of the total
                                 cost, did not enter the Postal Service’s mailstream.11 This
                                 occurred because the Postal Service had not fully
                                 implemented a supply chain management process to identify
                                 customers’ use of expedited packaging supplies, and did not
                                 have adequate management controls over the customer
                                 ordering of expedited packaging supplies.




11
 Although these supplies did not enter the Postal Service’s mailstream, an undetermined amount may remain in
customer inventory for future use.




                                                        5
Expedited Packaging Supplies                                                                MS-AR-05-002




                                     The Transformation Plan states the overarching
                                     objective for the Postal Service regarding supply chain
                                     management is to:

                                             . . . continue to implement and institutionalize
                                             supply chain management. Supply chain
                                             management is the analysis of the purchase
                                             process and the supply stream, from the
                                             supplier’s supplier to the customer’s use and
                                             disposal, in order to increase customer
                                             satisfaction and decrease overall cost.

                                             Effective supply chain management involves
                                             a number of business practices, including
                                             close interaction among end users, buyers
                                             and suppliers, long-term contracts, and
                                             ongoing analysis and improvement of
                                             operating and administrative processes. Its
                                             institutionalization, in terms of business
                                             practices, organizational design and
                                             deployment, and supplier relations, will lower
                                             overall costs and improve customer service.12

                                     Customer demand drove the ordering of expedited
                                     packaging supplies. Specifically, supply center
                                     representatives filled customer orders, and management
                                     had limited controls over the quantities ordered. Because
                                     the expedited packaging supply program operated in a
                                     customer-driven environment, adequate management
                                     controls should have been in place to limit customers’
                                     influence over ordering.

 Supply Chain                        From FYs 2000 to 2003, the Postal Service purchased over
 Management                          2.1 billion Priority Mail boxes and envelopes and over
                                     348 million Express Mail boxes and envelopes. However,
                                     program managers did not collect customer use data for
                                     these supplies. Collecting these data is the final stage of
                                     the supply chain management process, but program
                                     managers said tracking customer use of supplies was
                                     cost-prohibitive.




12
     United States Postal Service Transformation Plan, April 2002, Appendix Q, page Q-6.




                                                            6
Expedited Packaging Supplies                                                                      MS-AR-05-002




                                 When we compared supply data from the Expedited
                                 Packaging Supply group with Postal Service ODIS-RPW
                                 reports, we found that from FYs 2000 to 2003,
                                 approximately 328 million Priority Mail boxes and envelopes
                                 and 91 million Express Mail boxes and envelopes
                                 (approximately $56 million of expedited packaging supplies)
                                 did not enter the mailstream.

                                 While we determined the total number of expedited
                                 packaging supplies that did not enter the Postal Service’s
                                 mailstream, we could not identify individual customers who
                                 did not use the expedited packaging supplies they had
                                 received or determine whether those supplies will be used in
                                 the future. A complete supply chain management process
                                 would allow program management to track and measure the
                                 use of expedited packaging supplies from initial purchase
                                 through final use by the customer.

 Management Controls             Management needed stronger controls over ordering
 Need Strengthening              expedited packaging supplies. Program management did
                                 not consider its customers’ needs when determining
                                 minimum orders, currently set at 25 boxes for Priority Mail
                                 and 10 boxes for Express Mail. The current minimum orders
                                 for Priority Mail are based on:

                                      •   The financial consequences of increased freight
                                          costs.

                                      •   The financial consequences of the number of pieces
                                          in an order and the amount of wrapping material used
                                          to package the supplies.

                                      •   The offerings of Postal Service competitors.13

                                 For example, customers who needed 5 Priority Mail boxes
                                 received 25 boxes because of established policy. In
                                 FY 2003, the Express and Priority Mail Supply Center filled
                                 23 percent of all standard box orders for the minimum order
                                 of 25. Program management should consider its customers’




13
  Based on OIG benchmarking, the Postal Service’s competitors’ minimum order quantities for boxes ranged from
5 to 20 boxes.




                                                        7
Expedited Packaging Supplies                                                     MS-AR-05-002




                               needs (in addition to the three factors outlined above) when
                               shipping boxes, based on the fact that nearly one-quarter of
                               all standard box orders were for the minimum order.

                               Program management lowered the minimum order for
                               Express Mail boxes from 25 boxes to 10 because Express
                               Mail customers mailed in small volume over the retail
                               counter from their local post offices. Although program
                               management lowered the minimum order from 25 to 10, they
                               did not survey their customers’ needs when setting the new
                               minimum order.

                               The Postal Service had no upper limit on the amount of
                               expedited packaging supplies a customer could order.
                               Program management told the OIG that if an order were
                               excessive, the supply center would question it. However,
                               program management has no documented policies or
                               procedures governing excessive supply orders.

                               Given the customer-driven environment of the Expedited
                               Packaging Supply Program, effective management controls
                               over the ordering process are crucial to minimize
                               unaccounted-for supplies.

                               As the Postal Service continues to implement supply chain
                               management processes for its programs, the Expedited
                               Packaging Supply group should work towards fully
                               implementing its own supply chain management process. A
                               complete supply chain management process should help the
                               Expedited Packaging Supply group lower overall costs of
                               packaging supplies to the Postal Service.

 Recommendations               We recommend the vice president, Product Development,
                               direct the program manager, Expedited Packaging Supply
                               group, to:

                                   1. Conduct an annual review of customer use of
                                      expedited packaging supplies on an aggregate level
                                      (similar to the analysis performed by the OIG) to
                                      establish a business case to determine whether the
                                      annual cost of unaccounted for expedited packaging
                                      supplies is acceptable to the Postal Service.




                                                8
Expedited Packaging Supplies                                                     MS-AR-05-002




                                   2. Conduct a customer needs analysis and incorporate
                                      the results as an additional factor in determining
                                      minimum order quantities, and update the needs
                                      analysis biannually.

                                   3. Conduct an analysis to determine a maximum level
                                      of expedited packaging supplies customers can
                                      order and, once conducted, update the analysis
                                      biannually.

 Management’s                  Postal Service management agreed with
 Comments                      recommendations 1 and 3, and agreed in part with
                               recommendation 2. For recommendations 1 and 3
                               management stated it is working to institute a revised
                               method of measuring customers’ supply use; and conducted
                               an analysis and instituted a maximum level of supplies a
                               customer can order. For recommendation 2, management
                               stated their current rationale used to determine minimum
                               supply order quantities was effective and did not need to be
                               changed; however, management agreed with the need to
                               conduct more frequent reviews of minimum supply order
                               quantities.

 Evaluation of                 Management’s comments are responsive to
 Management’s                  recommendations 1, 2, and 3, and actions in progress,
 Comments                      completed, and planned address the issues identified in the
                               finding. However, the OIG disagrees with Postal Service
                               management’s statement that the current rationale used to
                               determine minimum supply order quantities is effective.
                               Based on the fact that nearly one-quarter of all standard box
                               orders are for the minimum order, the OIG believes that
                               without considering customer needs in the supply ordering
                               process, the Postal Service is missing an important factor
                               when determining minimum supply order quantities.




                                                9
Expedited Packaging Supplies                                                               MS-AR-05-002



 Expedited Packaging                  Management needed stronger controls over expedited
 Tape                                 packaging tape to deter potential waste. The policy offered
                                      free expedited packaging tape to the public and left the
                                      Postal Service at risk of tape not being used for its intended
                                      purpose. During our audit, the Postal Service changed its
                                      policy for expedited packaging tape by limiting customer
                                      access, addressing the OIG’s concerns about this finding.
                                      The Postal Service estimated it would save $2 million
                                      annually as a result of the change.

                                      Expedited packaging tape was originally designed and used
                                      to help mail handlers identify expedited packages and
                                      ensure these items were in the correct mailstream.
                                      Expedited packaging tape is no longer needed because
                                      expedited packaging stickers perform the same function.
                                      Expedited packaging stickers have no other use, while
                                      customers can use the tape for purposes other than mailing
                                      packages with the Postal Service.

                                      In FY 2003, the Postal Service purchased over $3.4 million
                                      in expedited packaging tape, with $1 million shipped to post
                                      offices and $2.4 million shipped to Postal Service
                                      customers. From FY 1998 through April 2004, the Postal
                                      Service purchased approximately $19 million in expedited
                                      packaging tape. We reviewed Postal Service competitors’
                                      Web pages and found no evidence that these companies
                                      offered free expedited packaging tape to their customers.

                                      The Transformation Plan states, “The transformation
                                      strategy for package services centers around controlling
                                      cost, managing price and enhancing service.”14 The
                                      Transformation Plan also states, “Supply chain
                                      management requires the analysis of customer use and
                                      disposal.”15

                                      By offering free expedited packaging tape to the public, the
                                      Expedited Packaging Supply program opened the Postal
                                      Service to potential waste of supplies, adding unnecessary
                                      costs.




14
     United States Postal Service Transformation Plan, April 2002, page 22.
15
     United States Postal Service Transformation Plan, April 2002, Appendix Q, page Q-6.




                                                            10
Expedited Packaging Supplies                                                     MS-AR-05-002



 Proposed Change in            During our audit, the Postal Service changed its policy for
 Policy                        expedited packaging tape. Expedited packaging tape is
                               now offered only to post offices and larger customers who
                               meet yearly monetary commitments similar to the
                               commitment levels outlined in Publication 22. Program
                               management estimated the change in policy will save the
                               Postal Service $2 million for FY 2004. The OIG will report a
                               2-year projected savings of $4 million in its Semiannual
                               Report to Congress. (See Appendix A.)

                               The proposed change in Postal Service policy for expedited
                               packaging tape addresses our concern; therefore, we are
                               making no recommendation.




                                                11
Expedited Packaging Supplies                                                               MS-AR-05-002



 Business Service                     The Postal Service had no policies or procedures requiring
 Network                              the BSN to monitor and report its involvement with
                                      expedited packaging supplies. The BSN did not follow
                                      supply chain management practices for tracking customer
                                      returns or redistributing excess expedited packaging
                                      supplies. As a result, the Expedited Packaging Supply
                                      group did not have the information needed to monitor the
                                      supplies handled by the BSN, making effective program
                                      management difficult.

                                      The Transformation Plan states in part, “Effective supply
                                      chain management involves a number of business
                                      practices, including close interaction among end users and
                                      ongoing analysis and improvement of operating and
                                      administrative processes.”16

                                      BSN employees could use the Customer First system to
                                      enter information on the return and redistribution of
                                      expedited packaging supplies. This tool could give the
                                      Expedited Packaging Supply group information that would
                                      allow it to monitor individual and systemic issues with
                                      customers using expedited packaging supplies.

                                      The BSN ordered expedited packaging supplies that
                                      required a monetary commitment from customers, but did
                                      not have the authority to carry out this function. This
                                      occurred because the BSN’s role was to handle customer
                                      service issues and needs requests, which led BSN
                                      personnel to exceed their authority in trying to satisfy
                                      customers. If monetary commitments are not verified, the
                                      Postal Service risks not offsetting the costs of offering more
                                      expensive expedited packaging supplies to customers.

                                      Publication 22 gives guidance for ordering expedited
                                      packaging supplies. Publication 22 authorized the Sales
                                      group to order expedited packaging supplies for customers
                                      meeting established monetary commitments. Publication 22
                                      does not authorize BSN personnel to fill customer orders for
                                      expedited packaging supplies requiring monetary
                                      commitments.

                                      In discussions with the BSN manager, we learned that the
                                      manager did not want BSN representatives to order

16
     United States Postal Service Transformation Plan, April 2002, Appendix Q, page Q-6.




                                                            12
Expedited Packaging Supplies                                                     MS-AR-05-002



                               expedited packaging supplies requiring a monetary
                               commitment unless the BSN representatives coordinated
                               with their counterparts in the Sales group to ensure
                               monetary commitments were met.

 Recommendations               We recommend the vice president, Product Development,
                               and the manager, Expedited Packaging group, coordinate
                               with the vice president, Customer Service, and the
                               manager, Business Service Network to:

                                  4. Establish policies and procedures enabling the
                                     Business Service Network to use Customer First to
                                     monitor and report the Business Service Network’s
                                     handling of expedited packaging supplies to the
                                     Expedited Packaging Supply group.

                                  5. Determine whether the Business Service Network
                                     should place orders for expedited packaging
                                     supplies that require a monetary commitment from
                                     the customer. If so, update Publication 22,
                                     Expedited Packaging Supplies, allowing the
                                     Business Service Network to place orders for
                                     expedited packaging supplies. Otherwise,
                                     ensure the Business Service Network adheres to
                                     Publication 22.

 Management’s                  Postal Service management agreed in part with
 Comments                      recommendation 4, stating that the BSN will work with
                               Customer First to ensure a customer qualifies for large
                               volumes of expedited supplies. However, management
                               stated that Customer First does not currently have the
                               capability to report ordering information back to the
                               Expedited Supply program, making it necessary to explore
                               the feasibility and capability of creating this reporting
                               feature.

                               Postal Service management agreed with recommendation
                               5, stating that the BSN will be allowed to place orders for
                               expedited packaging supplies requiring a monetary
                               commitment and will update Publication 22 accordingly.

 Evaluation of                 Management’s comments regarding recommendation 4,
 Management’s                  although responsive to using Customer First for future
 Comments                      reporting purposes, did not address using Customer First for
                               tracking customer returns or redistributing excess expedited


                                                13
Expedited Packaging Supplies                                                    MS-AR-05-002



                               packaging supplies in order to monitor the supplies handled
                               by the BSN.

                               Management’s comments regarding recommendation 5 are
                               responsive and actions planned will address the issue
                               identified in this finding.




                                                14
Expedited Packaging Supplies                                                       MS-AR-05-002



 Prior Audit Follow-           The OIG report, Mail Product Supplies (Report Number
 Up – Mail Product             AC-AR-03-002, dated February 14, 2003), stated that
 Supplies                      12 Postal Service districts had established local product
                               fulfillment operations to manage expedited packaging
                               supplies. The OIG recommended that Postal Service
                               management direct districts operating product fulfillment
                               centers to use excess mail product supplies in district
                               offices before purchasing additional supplies, discontinue
                               district product fulfillment, and enforce the requirement for
                               Postal Service facilities to order mail product supplies from
                               the Express and Priority Mail Supply Center or Postal
                               Service account managers.

                               The Chief Marketing Officer (CMO) agreed with the prior
                               OIG audit findings and recommendations and issued a letter
                               in December 2002 to the vice presidents, Area Operations,
                               and the manager, Capital Metro Operations, regarding the
                               OIG’s findings.

                               The CMO’s letter directed the vice presidents and manager
                               to instruct the field that both post offices and customers
                               should place orders for supplies directly through the
                               Express and Priority Mail Supply Center and that inventory
                               may not be stored at a Postal Service facility for
                               redistribution to post offices or customers. The CMO’s letter
                               also directed the facilities engaged in these activities to
                               exhaust current inventory and follow the guidelines in the
                               letter for future orders.

                               During our audit, we found one district had not complied
                               with the CMO’s letter. The local supply fulfillment operation
                               described above is detrimental to the supply chain
                               management practices currently in use by the Expedited
                               Packaging Supply program.

 Recommendation                We recommend the Chief Marketing Officer:

                                  6. Direct district managers to eliminate local expedited
                                     packaging supply fulfillment operations and follow
                                     Publication 22, Expedited Packaging Supplies, for
                                     the ordering of supplies.




                                                 15
Expedited Packaging Supplies                                                     MS-AR-05-002




 Management’s                  Postal Service management agreed with our
 Comments                      recommendation, stating that past instruction to district
                               offices will be reiterated and new instructions for ordering
                               expedited packaging supplies requiring the use of the e-Buy
                               system will be issued to Post Offices.

 Evaluation of                 Management’s comments are responsive to our
 Management’s                  recommendations and actions planned will address the
 Comments                      issue identified in this finding.




                                                16
Expedited Packaging Supplies                                          MS-AR-05-002




                  APPENDIX A. FUNDS PUT TO BETTER USE


                                                       FUNDS PUT TO
           FINDING TITLE          RECURRING
                                                        BETTER USE
                                                           Total
        Expedited Packaging    Number     Amount
                                                          Amount
               Tape            of Years   Per Year


                                  2       $2 Million     $4 Million




                                          17
Expedited Packaging Supplies                       MS-AR-05-002



               APPENDIX B. MANAGEMENT’S COMMENTS




                                18
Expedited Packaging Supplies        MS-AR-05-002




                               19
